                              CLOSEOUT FOR M92080032




review article and found that both proposals contained one paragraph and one additional sentence
that appeared to be verbatim transcriptions from-ciel;                   however, the material
was not indented or enclosed by quotation marks and it was not followed by a citation. The
article was not referenced in either proposal.

     When contacted by OIG the subject stated that he both had transcribed the material and had
not provided a citation. Because the material was from a review article and did not, in the
subject's opinion, contain new ideas, he did not view such transcription as plagiarism. He stated
that he had never intended to plagiarize anyone's work. OIG explained the concept of plagiarism
and provided the subject with a copy of "On Being a Scientist," (a publication of the National
Academy of Sciences). This publication contains a brief, but clear, discussion of plagiarism and
other forms of misconduct in science. The subject reviewed the material and agreed with our
interpretation. At OIG's request he revised the text in question from both proposals, enclosing
the material in quotation marks, provided a citation, and inserted the appropriate reference in the
proposal bibliography. OIG reviewed and approved these changes. The subject then amended
his proposals by forwarding, to the NSF program, copies of the corrected pages to replace the
original pages.

    OIG feels that this young investigator has developed a greater understanding of plagiarism,
and misconduct in science, and that he had taken the appropriate remedial action. This case is
closed without further action.



                         L31257k3
Staff Scientist, Oversight

Concurrence:



                               '   3/36/73                        %&A / S / Y ~
Donald E. Buzzelli                               %unes J. ~wblen~%
Deputy Assistant Inspector General,              Assistant Inspector General for Oversight
Oversight
                            CLOSEOUT FOR M92080032
Concurrence:




                                       3/sr/Q3YlrP

Linda Nancy ~ G b a u r n
Assistant counsel to the Inspector General



CC:    Assistant Inspector General for Oversight
       Inspector General
